Report No. D-2011-086         July 20, 2011




               U.S. Marine Corps
      Forces Special Operations Command
        Needs to Improve Controls Over
             Financial Transactions
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CoW                           Cost of War
DoD FMR                       DoD Financial Management Regulation
JFTR                          Joint Federal Travel Regulation
MCO                           Marine Corps Order
OCO                           Overseas Contingency Operations
QMAD                          Quantitative Methods and Analysis Division
SABRS                         Standard Accounting, Budgeting, and Reporting System
SIC                           Special Interest Code
USMC                          U.S. Marine Corps
USSOCOM                       U.S. Special Operations Command
                                 INSPECTOR GE NERAL
                               DEPAR TMENT OF DEFE NSE
                                  400 ARMY NAVY DRIVE
                             ARLI NGTON , VIRG INIA 22202-4704



                                                                                 July 20, 20 II

M EMORAN DUM FOR UN DER S EC RETARY OF DEFENSE
                   (COMPTROLLER)fC I-II EF F INANCIAL OFFICER
                 COMMAN DANT, UN ITED ST ATES MA RINE CORPS
                 DIRECTOR, DEFENSE F IN ANCE AN D
                  ACCOUNTING SERV ICE
                 NAVAL INS PECTOR GENERAL
                 INS PECTOR GENERAL, UNITED STATES SPECIAL
                   OP ERATIONS COMM AN D

SUBJ ECT: U.S. Marine Corps Forces Spec ial O perations Comm and Needs to Improve
         Controls Over F in anc ial Transactions (Report N umber D-20 11 -086)

We are prov iding thi s report for yo UI' inform ation and use . The U. S. Marine Corps
Forces Spec ial Ope rati ons Command tra ins and deploys forces and is responsible for
managin g its fund s. The U.S. Marine Corps Forces Special Operation s Command did not
have effecti ve controls over recording and process ing base line and contingency funds
valued at $ 13 1.8 milli on in obli gations and $54 .1 milli on in expenditUl'es. We con sidered
comments from th e Ass istant Secretary of the Navy (Financial Management and
Comptroll er) on a draft of thi s report when preparing the fin a l report.

Comments to the draft of this report co nformed to the requirements of DoD
Directi ve 7650.3 and left no unreso lved issues . Th erefore, we do not require any
additi onal comments.

We apprec iate the courtes ies extended to the staff. Please direct quest ions to me at
(703) 601 -5 868 .




                                        p~am~
                                          Patricia A. Marsh, CPA
                                        Ass istant In spector General
                                   Financ ial Management and Reporting
Report No. D-2011-086 (Project No. D2009-D000FN-0301.000)                                    July 20, 2011

               Results in Brief: U.S. Marine Corps Forces Special
               Operations Command Needs to Improve Controls
               Over Financial Transactions
                                                           personnel. As a result, the Command made
What We Did                                                improper travel payments of $11,000 and reported
Our objective was to determine whether internal            inaccurate and incomplete financial data of
controls over the U.S. Marine Corps Forces Special         $37 million in obligations and $20 million in
Operations Command (the Command) comptroller               expenditures.
operations were effective and in accordance with
applicable guidance and regulations.                       Further, the Command did not have effective
                                                           controls for reporting Overseas Contingency
                                                           Operations (OCO) costs of war. For example, the
What We Found                                              Command could not provide support for attributing
The Command did not have effective controls over           costs to OCO for 35 transactions valued at
recording and processing 35,699 transactions using         $15.9 million in obligations and $1.5 million in
baseline and contingency funds valued at                   expenditures. This occurred because the Command
$131.8 million in obligations and $54.1 million in         comptroller did not have standard operating
expenditures from October 1, 2008 to                       procedures to verify that the transaction codes for
October 16, 2009. The 320 sample transactions              OCO were reconciled between the Cost of War
included obligations valued at $83.8 million and           Report, accounting system, and the documentation
expenditures at $20.6 million; 245 transactions had        for these costs. As a result, the Command reported
one or more deficiencies. Specifically, Command            inaccurate costs for Operation Enduring Freedom
personnel:                                                 on the Cost of War Report.
    • recorded 30 obligations valued at $300,000
       without an official signing the authorization       What We Recommend
       and approval;
                                                           We recommend the Commander, U.S. Marine
    • made 14 expenditures valued at $700,000
                                                           Corps Forces Special Operations Command,
       for the purchase of goods and services
                                                           improve controls over processing and recording
       without an official receipt;
                                                           baseline and contingency operation funds by
    • approved 26 travel vouchers valued at                developing standard operating procedures, training
       $200,000 with incorrect and unsupported             personnel, and performing reviews of transactions.
       expenses;                                           In conjunction with the U.S. Marine Corps Force
    • recorded 19 obligations valued at $600,000           Structure Review Group, develop a plan to address
       and 14 expenditures valued at $300,000 that         problems stemming from personnel rotation at the
       did not match the supporting                        Command.
       documentation; and
    • processed 215 transactions with insufficient         Management Comments and
       supporting documentation that included
       obligations valued at $37 million and               Our Response
       expenditures valued at $20 million.                 The Assistant Secretary of the Navy (Financial
                                                           Management and Comptroller) concurred with all
This occurred because the Command lacked                   recommendations. Management comments were
adequate standard operating procedures, training           responsive to the recommendations. Please see the
for personnel, and quality assurance reviews. In           recommendations table on the back of this page.
addition, experienced accounting personnel were
frequently deployed and replaced by inexperienced
                                                       i
Report No. D-2011-086 (Project No. D2009-D000FN-0301.000)                  July 20, 2011


Recommendations Table

         Management                Recommendations           No Additional Comments
                                  Requiring Comment                   Required
 Commander, U.S. Marine                                     A.1.a, A.1.b, A.1.c, A.1.d,
 Corps Forces Special                                       A.1.e, A.1.f, A.1.g, A.2, B.1,
 Operations Command                                         B.2, B.3, B.4.




                                          ii
Table of Contents

Introduction                                                                 1

      Audit Objective                                                        1
      Background of MARSOC Financial Transactions                            1
      Internal Controls Over MARSOC Financial Transactions                   2

Finding A. Improvements Are Needed for Management of Obligations and
           Expenditures                                                     3

      Supporting Documentation Requirements                                 3
      Obligating Documents Must be Signed                                   4
      Signing Official Receipt and Acceptance of Goods and Services         4
      Correct and Supported Expenses on Travel Vouchers                     5
      Reconcile Amounts Recorded in SABRS                                   6
      Sufficiently Support Transactions with Documentation                  7
      Management Initiated Corrective Actions                               9
      Recommendations, Management Comments, and Our Response                9

Finding B. Improvements Are Needed for Overseas Contingency Operations
Reporting                                                                   12

      Overseas Contingency Operations Requirements                          12
      USMC Cost of War Report Must be Supported                             13
      Support SICs Recorded in SABRS                                        13
      Reconcile Cost Codes                                                  14
      Recommendations, Management Comments, and Our Response                14

Appendices

      A. Audit Scope and Methodology                                        16
      B. Statistical Sample                                                 18
      C. Travel Vouchers With Deficiencies or Unsupported Expenses          19

Management Comments

      Office of the Assistant Secretary of the Navy (Financial Management
      and Comptroller)                                                      20
Introduction
Audit Objective
The audit objective was to determine whether internal controls over the U.S. Marine
Corps Forces Special Operations Command (the Command) comptroller operations
were effective. Specifically, we determined whether controls were in place and
operating effectively to properly report authorized, obligated, and expended baseline
and contingency funds in accordance with applicable guidance and regulations. See
Appendix A for a discussion of the scope and methodology related to the audit objective.

Background of MARSOC Financial Transactions
The Command is the U.S. Marine Corps (USMC) Component of the U.S. Special
Operations Command (USSOCOM). The Command trains, organizes, equips, and
deploys USMC special operations forces worldwide in support of DoD plans and
campaigns against terror. DoD plans include overseas contingency operations (OCO),
such as Operation Enduring Freedom. The Command is funded by both USSOCOM
and USMC.

The Command comptroller, fund manager, and certifying officers are responsible for
managing funds. The Command comptroller is responsible for maintaining oversight of
transactions to ensure validity and accuracy. The fund managers are responsible for
preparing source documents for financial transactions, recording transactions into the
accounting system, and reconciling the source documents with the accounting system.
The Command’s certifying officers are responsible for the accuracy of travel vouchers
submitted for payment as well as the supporting documentation for each travel voucher.
In addition, certifying officers have personal liability for erroneous payments based on
their certification of the travel vouchers.

USMC uses the Standard Accounting, Budgeting, and Reporting System (SABRS) as its
official accounting system to record financial transactions. Whenever a fund manager
requests goods, services, training, or travel, all source documents are processed into
SABRS through a financial transaction cycle with the following five phases.

       First: When a transaction is initiated, funds are administratively reserved based
       on procurement directives or equivalent documents that authorize preliminary
       negotiations, which may create obligations.

       Second: Once funds are reserved, they are held as commitments based on firm
       procurement directives, orders, requisitions, authorizations to issue travel orders,
       or other requests that authorize the receiving organization to create an obligation.

       Third: After an organization enters into a firm, legally binding agreement, an
       obligation is recorded in the accounting system. At this time, the Government
       becomes contractually liable for the amount shown on the supporting document.

                                             1
         Fourth: When an organization’s authorized receiving point receives and accepts
         the goods or services, an accounts payable amount is created in the appropriate
         accounting system.

         Fifth: Finally, funds are expended in the form of payment for goods or services
         that were ordered and received. Expenditures 1 are made after an invoice is
         received from a vendor or Government agency.

Upon our request, the Command provided a universe of transactions from SABRS.
The universe included 35,699 transactions that represented baseline and contingency
operation funds valued at $131.8 million in obligations and $54.1 million in expenditures
recorded in SABRS from October 1, 2008 to October 16, 2009. We statistically selected
317 transactions and nonstatistically selected three financial transactions valued at
negative $136,000 from the universe. The 320 transactions represented the Command's
obligations valued at $83.8 million and expenditures valued at $20.6 million. See
Appendices A and B for more information on the scope and methodology, for details
on the transactions tested, and the sampling plan.

All DoD Components, including the Command, are required to implement controls over
financial reporting in accordance with applicable policy. DoD Regulation 7000.14-R,
“DoD Financial Management Regulation” (DoD FMR), volume 6a, chapter 2, “Financial
Reports Roles and Responsibilities,” provides policy for developing and maintaining
an audit trail of supporting documentation. Marine Corps Order (MCO) 7300.21A,
October 2008, provides standard operating procedures to personnel for performing their
financial related job duties.


Internal Controls Over MARSOC Financial Transactions
DOD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system
of internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the control. We identified internal control
weaknesses as they relate to the audit objective. The Command did not have effective
controls over recording and processing obligations and expenditures. In addition, the
Command did not maintain a reconcilable audit trail for the U.S. Marine Corps Cost of
War report. We will provide a copy of the report to the senior official responsible for
internal controls in USMC.




1
 For the purposes of this report, we used the term “expenditures” instead of “liquidations” because it is a
more commonly used term.

                                                      2
Finding A. Improvements are Needed
for Management of Obligations
and Expenditures
The Command did not have effective controls over recording and processing
35,699 transactions using baseline and contingency funds valued at $131.8 million
in obligations and $54.1 million in expenditures from October 1, 2008 to October 16,
2009. The 320 sample transactions included obligations valued at $83.8 million and
expenditures at $20.6 million; 245 of the 320 transactions 2 had one or more deficiencies.
Specifically, Command personnel:

    •   recorded 30 obligations valued at $300,000 without the proper authorization and
        approval;
    •   processed 14 expenditures valued at $700,000 for the purchase of goods and
        services without proper receipt and acceptance;
    •   approved 26 travel vouchers valued at $200,000 with incorrect and unsupported
        expenses;
    •   recorded in SABRS 19 obligations valued at $600,000 and 14 expenditures valued
        at $300,000 that did not match the supporting documentation; and
    •   processed 215 transactions with insufficient supporting documentation that
        included obligations valued at $37 million and expenditures valued at $20 million.

This occurred because the Command comptroller lacked adequate standard operating
procedures, training to guide personnel in the performance of their duties, and quality
assurance reviews. Additionally, the Command comptroller did not ensure Command
fund managers reconciled SABRS to supporting documentation. Command personnel
were also frequently deployed and the positions were filled with inexperienced personnel.
As a result, the Command made improper travel payments valued at $11,000 and
increased the risk of reporting inaccurate or incomplete financial data, valued at
$37 million of $131.8 million in obligations and $20 million of $54.1 million in
expenditures. Additionally, these control weaknesses increased the risk of fraud and
abuse and of misstatements on USMC and the Command’s financial reports.

Supporting Documentation Requirements
The DoD FMR, MCO, and Joint Federal Travel Regulations (JFTR) provide policies to
implement controls over financial reporting and travel. Controls must be in place to
ensure that transactions are accurate, timely, and complete in accordance with DoD FMR,
volume 6a, chapter 2, “Financial Reports Roles and Responsibilities.” The Command
should maintain a readily available and complete audit trail to support its financial
transactions. In addition, Command management is responsible for ensuring the


2
 Some of the 320 transactions contained multiple deficiencies; however, each individual transaction was
counted only once as being deficient.

                                                    3
accuracy of the information generated and recorded in SABRS and included in financial
reports.

The Command is responsible for implementing controls over financial reporting in
accordance with the MCO. The MCO establishes the responsibilities of Command
personnel for processing financial transactions. The Command comptroller is responsible
for maintaining oversight of transactions in SABRS to ensure validity and accuracy.
Command fund managers are required to reconcile and correct transactions in SABRS to
ensure accuracy and completeness. Additionally, the MCO provides policy for written
travel authorizations, receipts, and reimbursement of official travel expenses.

JFTR, volume 1, “Uniformed Service Members,” January 2010, provides policy on
controls for official travel. Command personnel are required to review official travel
documents, supporting documentation, and vouchers for accuracy and completeness
before expending funds.

Obligating Documents Must be Signed
The Command did not properly authorize and approve obligating documents.
Specifically, Command authorizing or approving officials did not sign obligating
documents for 30 transactions, valued at $300,000, of 185 transactions. For example,
Command personnel provided an e-mail from a vendor confirming that an order for
supplies valued at $53,000 had been placed as an obligating document. The e-mail did
not have a signature or other indication that the Command authorized or approved the
purchase. The MCO requires management in a USMC organization to authorize and
approve an official document describing a financial transaction, including the amount for
which the Government is liable.

Obligating documents did not indicate authorization or approval because Command
management lacked adequate standard operating procedures and training for personnel.
By processing improperly authorized and approved obligating documents, the Command
increased the risk of improperly used funds and inaccurate financial reports. The
Command should ensure that obligating documents are properly authorized and approved
by developing standard operating procedures, providing training, and implementing a
quality assurance review of controls over obligating documents.

Signing Official Receipt and Acceptance of Goods
and Services
The Command did not ensure that all expenditures for goods and services were supported
with a properly signed receiving report or acceptance of services. Specifically,
Command personnel paid for goods and services without a signed receiving report as
evidence of receipt of goods or acceptance of services for 14 expenditures, valued at
$700,000, of 55 expenditures. For example, Command personnel provided a packing slip
as a receiving report for an item purchased. However, personnel did not sign the packing
slip. The Command paid $89,000 with insufficient evidence of receipt of the item.
DoD FMR, volume 10, chapter 1, “Financial Control of Vendor and Contract Payments,”

                                            4
requires a signature or an electronic alternative on all receiving reports. Additionally, the
MCO requires acceptance of the goods or services by a Government employee before the
funds are expended.

Expenditures for goods and services were not always supported with a properly signed
receiving report or acceptance of services because Command management lacked
standard operating procedures and training for receipt of goods and services. As a result,
the Command increased the risk that it paid for items or services it did not receive or paid
for different items or services than ordered. The Command should develop standard
operating procedures and training for personnel to improve the controls over signing
inspection or receiving report forms, commercial shipping documents, or packing lists for
goods and services to support expenditures. Additionally, the Command should
implement a quality assurance review of controls over receipt and acceptance of items
and services.

Correct and Supported Expenses on Travel Vouchers
                                      Of 63 travel vouchers, Command certifying officers
      Of 63 travel vouchers,          and departmental accountable officials approved
   Command certifying officers        26 travel vouchers with deficiencies and
  and departmental accountable        unsupported expenses, valued at $200,000. For
   officials approved 26 travel       example, certifying officers and departmental
  vouchers with deficiencies and      accountable officials approved payments valued at
  unsupported expenses, valued        $7,730 for rental vehicles that were located in the
           at $200,000.               United States while the two travelers were overseas.

In another example, a certifying officer and a departmental accountable official approved
mileage expenses on a travel voucher for the use of the traveler’s privately owned vehicle
for a round trip from California to North Carolina, as well as in-and-around mileage
while in North Carolina, without a proper constructive travel worksheet. The traveler
was paid $6,553 for mileage, which included $2,813 for 5,114 miles for the round trip
from California to North Carolina. If the traveler had flown instead of driving round trip,
the airfare would have cost approximately $1,236 (at current prices) versus the $2,813
paid to the traveler for mileage expenses. In addition, the Government paid the traveler
$3,740 for 6,800 miles for in-and-around mileage while in North Carolina without a
cost-benefit analysis on a constructive worksheet. The certifying official approved this
expense without the supporting documentation to justify the mileage cost of $6,553.
Command officials acknowledged these issues and initiated research into travel vouchers.
See Appendix C for a list of travel vouchers with deficiencies and unsupported expenses.

The JFTR and DoD FMR specify the policies for travel. The JFTR requires supporting
receipts for lodging, airfare, and other expenses over $75, and a constructive travel
worksheet for any nonstandard modes of travel. The constructive travel worksheet
compares costs for reimbursement of non-standard modes of travel.




                                              5
Under section 2773a(c), title 10, United States Code (2006), Departmental Accountable
Officials have pecuniary liability. That is,

      (1) The Secretary of Defense may subject a departmental accountable official to pecuniary
      liability for an illegal, improper, or incorrect payment made by the Department of Defense
      if the Secretary determines that such payment—
      (A) resulted from information, data, or services that that official provided to a certifying
      official and upon which that certifying official directly relies in certifying the voucher
      supporting that payment; and
      (B) was the result of fault or negligence on the part of that departmental accountable
      official.
      (2) Pecuniary liability under this subsection shall apply in the same manner and to the
      same extent as applies to an official accountable under subtitle III of title 31.
      (3) Any pecuniary liability of a departmental accountable official under this subsection for
      a loss to the United States resulting from an illegal, improper, or incorrect payment is joint
      and several with that of any other officer or employee of the United States or member of
      the uniformed services who is pecuniarily liable for such loss.

Under section 3528(a)(4), title 31, United States Code (1998), certifying officers are
responsible for repaying payments if the original payment was “(A) illegal, improper, or
incorrect because of an inaccurate or misleading certificate; (B) prohibited by law; or
(C) [did] not represent a legal obligation under the appropriation or fund involved."

Certifying officers and departmental accountable officials approved the travel vouchers
with deficiencies and unsupported expenses because they did not thoroughly review
travel vouchers. As a result, the Command made improper travel payments and increased
the risk for fraud. To improve controls over travel, the Command should ensure
certifying officers implement JFTR and DoD FMR policies, and review travel vouchers
and supporting documentation. The Command should perform periodic quality assurance
reviews of travel vouchers to identify issues, patterns, and areas of concern for future
training opportunities and to ensure controls are operating effectively. The Command
should review the performance of the certifying officers and departmental accountable
officials and initiate appropriate action. The Command should also review the vouchers
identified in Appendix C and recover improper payments as appropriate.

Reconcile Amounts Recorded in SABRS
The Command recorded 19 obligations valued at $600,000 and 14 expenditures valued
at $300,000 in SABRS that did not match the supporting documentation. The Command
provided supporting documentation that did not agree with amounts recorded in SABRS.
For example, Command personnel provided a voucher for $13,084; however, they
recorded $18,253 in SABRS as expended. The amount recorded in SABRS as expended
matched the amount on the travel authorization rather than the actual voucher amount.

The Command must ensure the accuracy, completeness, and documentary support for all
data generated, entered into SABRS, and included in financial reports in accordance with
DoD FMR, volume 6a, chapter 2. In addition, the MCO requires command comptrollers
to provide oversight and fund managers to reconcile transactions in SABRS to ensure
accuracy and completeness. It also requires fund managers to ensure supporting

                                                     6
documentation is reconciled against SABRS reports to accurately match accounting
records to supporting documentation. Fund managers are required to identify errors,
ensure SABRS captures price increases, additional charges, or miscellaneous charges,
and support any adjustment made and should maintain supporting documentation for any
adjustments.

The Command incorrectly recorded obligations and expenditures because the comptroller
did not maintain oversight to ensure fund managers reconciled amounts recorded in
SABRS to supporting documentation. As a result, the Command increased the risk that
financial transactions entered into SABRS were not accurate or complete, which may
lead to misstated financial statements and other financial reports. To improve accuracy
over recording obligations and expenditures, the Command comptroller should ensure
fund managers consistently reconcile transactions to SABRS and support adjustments.

Sufficiently Support Transactions with Documentation
The Command did not maintain sufficient supporting documentation for 215 of
320 transactions. 3 Specifically for the 215 transactions, the Command was not able to
provide adequate support for 508 requested documents. Specifically, the following types
of documents were insufficient:

     •   135 obligating documents valued at $37 million,
     •   88 invoices valued at $15.4 million,
     •   159 payment vouchers valued at $15.9 million,
     •   123 receiving reports valued at $18.9 million, and
     •   3 travel vouchers valued at $11,000.

The MCO requires Command personnel to maintain source documents that support fund
execution.

The Command did not maintain required obligating documents for 135 transactions
valued at $37 million. For example, Command personnel provided a history report as
an obligating document. A history report does not support a legally binding agreement
or a financial transaction, and the Command’s history report did not document the request
and approval process, signatures, and date. For some transactions, Command personnel
did not maintain an obligating document, such as a contract. DoD FMR, volume 3,
chapter 8, states that an obligation is recorded when the obligation is in writing and
supported by documentation. The MCO requires an official, legally binding document
supporting a financial transaction to exist. Command personnel, including fund
managers, are responsible for preparing and maintaining obligating documents.




3
  Each individual transaction was counted only once as being insufficient even though some of the
transactions were insufficient in more than one area.

                                                    7
 Command personnel        Command personnel did not maintain supporting
   did not maintain       documentation necessary to support expenditures.
      supporting          Specifically, of 178 invoices, 178 payment vouchers, and
    documentation         178 receiving reports, the Command did not maintain
 necessary to support     88 invoices valued at $15.4 million, 159 payment vouchers
     expenditures.        valued at $15.9 million, and 123 receiving reports valued at
                          $18.9 million, as illustrated in the table.

          Table. Supporting Documentation for 320 Sampled Transactions
          Type                 Provided            Not Provided   Unacceptable     Total
                                                                                 Requested

Obligating Documents                185                48             87           320
Invoices                            90                 64             24           178
Receiving Reports                   55                 97             26           178
Payment Vouchers                    19                 155             4           178
Travel Vouchers                     63                  2              1            66

Of 66 travel vouchers, Command personnel did not maintain three travel vouchers,
valued at $11,000. For example, the Command paid a traveler $3,336 without any
supporting documentation, including a travel voucher. See Appendix C for a list of travel
vouchers with deficiencies and unsupported expenses. DoD FMR, volume 10, chapter 8,
requires Command personnel to maintain supporting documentation such as contracts,
invoices, and vouchers. Additionally, the MCO requires Command personnel to maintain
supporting documents that supports fund execution.

The Command also did not maintain supporting documentation necessary to support
three financial transactions valued at negative $136,000. Command personnel provided
SABRS screen prints showing adjustments to obligated and expended amounts in the
system as supporting documentation. The screen prints did not support the basis and
justification for the adjustments and did not identify the name and position of the
individual approving the adjustments. DoD FMR, volume 6a, chapter 2, requires written
documentation to support adjustments with enough detail to provide an audit trail as to
why the adjustment occurred. The Command did not maintain complete supporting
documentation because management lacked adequate standard operating procedures and
training for personnel. In addition, personnel were frequently deployed and the positions
were filled with personnel who did not have experience or training in processing and
supporting financial transactions. Additionally, the Command lacked resources to
effectively monitor transactions.

   The Command increased the             The Command increased the risk of inaccurate or
 risk of inaccurate or unreliable        unreliable amounts reported in USMC management
   amounts reported in USMC              reports and financial statements. The control
    management reports and               weakness also increased the risk of improper
       financial statements.             payments, fraud, and abuse. The Commander,
                                               8
U.S. Marine Corps Forces Special Operations Command, in conjunction with the
U.S. Marine Corps Force Structure Review Group, should develop a plan to address the
problems stemming from personnel rotation, particularly those that contribute to control
weaknesses and noncompliance with the DoD FMR and MCO. The Command should
develop standard operating procedures, train personnel to implement policy for
maintaining documentation, and perform periodic quality assurance reviews to maintain
complete, readily available supporting documentation that provides an audit trail for
financial transactions.

Management Initiated Corrective Actions
The Command provided training in March and April 2010 on basic fiscal steps in all
the feeder systems for SABRS. Additionally, it developed new standard operating
procedures, including:

   •   Operational Funds, March 11, 2010;
   •   Non-System (Open Market) Procurement Requests, April 21, 2010; and
   •   Off-Line Requisitions, May 25, 2010.

The training and standard operating procedures should contribute to improved controls
over processes. The SOPs developed address specific processes; however, more policies
need to be developed to address all weaknesses found and as addressed by our
recommendations. In addition, the Command initiated corrective actions on some of the
identified travel vouchers. The actions may result in recovering approximately $11,000.

Recommendations, Management Comments, and
Our Response
A.1. We recommend the Commander, U.S. Marine Corps Forces Special Operations
Command:

      a. Develop standard operating procedures and train personnel to properly
authorize and approve obligating documents in accordance with Marine Corps
Order 7300.21A, October 2008.

       b. Develop standard operating procedures and train personnel to properly
sign inspection or receiving report forms, commercial shipping documents, or
packing lists for goods and services to support expenditures in accordance with DoD
Financial Management Regulation, volume 10, chapter 1, “Financial Control of
Vendor and Contract Payments” and Marine Corps Order 7300.21A, October 2008.

      c. Perform quality assurance reviews of travel vouchers to improve
compliance with Joint Federal Travel Regulations, volume 1, “Uniformed Service
Members,” January 2010.




                                            9
Management Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller)
responding for the Commander, U.S. Marine Corps Forces Special Operations Command,
agreed. The Assistant Secretary stated that the Commander, U.S. Marine Corps Forces
Special Operations Command, published standard operating procedures in October 2010
to train Command personnel in proper procedures and practices for financial management
responsibilities. The Command conducted training in early 2010 in various financial
management topics and continues to train unit leaders and other personnel. She also
stated that additional actions, such as a recent quality assurance review and tri-annual
reviews with emphasis on travel transactions should address the recommendations.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments
are responsive and meet the intent of the recommendations. No further comments are
required.

        d. Review the travel vouchers processed by the Command including those
identified in Appendix C to determine if the certifying officers and departmental
accountable officials properly approved travel vouchers. Determine whether
improper payments were made and recover improper payments as appropriate.
Initiate appropriate action in accordance with section 2773a(c), title 10, United
States Code (2006), and section 3528(a)(4), title 31, United States Code (1998).

Management Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller)
responding for the Commander, U.S. Marine Corps Forces Special Operations Command,
agreed. She stated that the Command reviewed the 29 travel vouchers identified in
Appendix C for validity and accuracy and determined that 13 were proper payments, 10
were improper payments, and 6 were undeterminable. Collection actions on
approximately $4,700 of improper payments have been initiated. Approximately $3,000
has already been collected. Completion date: September 15, 2011.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments
are responsive and meet the intent of the recommendations. No further comments are
required.

      e. Reconcile and maintain supporting documentation for adjustments to the
Standard Accounting, Budgeting, and Reporting System, according to Marine
Corps Order 7300.21A, October 2008.

       f. Develop standard operating procedures and train personnel to maintain
supporting documentation to fully support financial transactions in accordance with
DoD Financial Management Regulation, volume 6a, chapter 2, “Financial Reports
Roles and Responsibilities.”

                                          10
       g. Implement periodic quality assurance reviews of financial transactions to
ensure that obligating documents are signed, receipt of items and services are
signed, amounts are recorded and reported correctly and that proper supporting
documentation exists and is maintained in accordance with DoD Financial
Management Regulation, volume 6a, chapter 2, “Financial Reports Roles and
Responsibilities” and Marine Corps Order 7300.21A, October 2008.

Management Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller)
responding for the Commander, U.S. Marine Corps Forces Special Operations Command,
agreed. The Assistant Secretary stated that U.S. Marine Corps Forces Special Operations
Command order 7300.1 policy ensures supporting documentation is reconciled and
maintained. She stated that quarterly fiscal assistance visits, tri-annual reviews of
unliquidated orders, and quarterly assessment reviews enforce the policy, and actions
taken should address the recommendations.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments
are responsive and meet the intent of the recommendations. No further comments are
required.

A.2. We recommend the Commander, U.S. Marine Corps Forces Special Operations
Command, in conjunction with the U.S. Marine Corps Force Structure Review
Group, develop a plan to address the problems stemming from personnel rotation
that contributed to control weaknesses and noncompliance with DoD Financial
Management Regulation, volume 6a, chapter 2, “Financial Reports Roles and
Responsibilities.”

Management Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller)
responding for the Commander, U.S. Marine Corps Forces Special Operations Command,
agreed. She stated that the U.S. Special Operations Command and U.S. Marine Corps
Forces Special Operations Command have engaged the U.S. Marine Corps Force
Structure Review Group, and the proposed growth of military personnel within the
Command should reduce transitions. She added that civilian-staffing growth will be
more challenging because of the substantial reduction in civilian personnel as part
of the Secretary of Defense efficiency review in December 2011. Completion date:
December 15, 2011.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments
are responsive and meet the intent of the recommendations. No further comments are
required.


                                          11
Finding B. Improvements are Needed for
Overseas Contingency Operations Reporting
The Command did not have effective controls for reporting Overseas Contingency
Operations (OCO) costs of war. For example, the Command could not provide support
for attributing costs to OCO for 35 transactions valued at $15.9 million in obligations
and $1.5 million in expenditures. Specifically, the Command could not attribute costs
on the USMC Cost of War (CoW) report valued at $7.2 million in obligations and
$4.1 million in expenditures. Additionally, of 41 transactions in SABRS, the Command
did not support special interest codes (SICs) for 35 transactions, valued at $15.9 million
in obligations and $1.5 million in expenditures; of the 41 transactions, it did not ensure
cost codes in SABRS cross-walked correctly to the CoW report or supporting
documentation for eight transactions, valued at $13.4 million in obligations and
$800,000 in expenditures.

This occurred because Command management lacked standard operating procedures to
support the CoW Report with an audit trail and verify that the transaction codes for OCO
were reconciled between the Cost of War Report, the accounting system, and the
documentation for the costs. In addition, Command lacked standard operating
procedures for personnel to reconcile changes made to cost codes within SABRS. As a
result, the Command reported inaccurate costs for Operation Enduring Freedom on the
Cost of War Report. Misstated CoW reports give Congress and DoD management
incorrect information on the cost of war.

Overseas Contingency Operations Requirements
USMC and USSOCOM provide funding to the Command to carry out OCO missions.
USMC and USSOCOM report the status of the Command’s OCO funds on separate CoW
reports. The CoW reports keep Congress and DoD management informed on the cost of
the war. The Command records and tracks these OCO funds in SABRS. For our sample
of 320 transactions, 41 were recorded in SABRS as associated with OCO.

The MCO and DoD FMR provide policy related to OCO. The Command records
contingency operations in SABRS by SICs, such as for Operation Enduring Freedom.
According to the MCO, the SIC is used to collect and track all obligations and
expenditures associated with a specific contingency operation. Command personnel use
SICs to track the costs associated with each contingency operation and produce reports of
transactions from SABRS. Supporting documents, as part of the audit trail, substantiate
the SICs and provide the basic facts of the transaction, such as what occurred, when the
event occurred, and why the event occurred. According to DoD FMR, volume 12,
chapter 23, “Contingency Operations,” the Command is also required to establish unique
codes to capture costs. These cost codes form the basis for cost collection and
categorization for all financial transactions in SABRS. Examples of cost codes include
Training, Supplies and Equipment, Transportation, and Contract Services.

Additionally, according to DoD FMR, volume 6a, chapter 2, the Command is responsible
for ensuring the accuracy of the information generated and recorded in SABRS and

                                            12
included in financial reports; maintain a readily available and complete audit trail to
support financial transactions; periodically validate obligations and accounts payable.

USMC Cost of War Report Must be Supported
The Command did not ensure the amounts on the USMC CoW Report, valued
at $7.2 million in obligations and $4.1 million in expenditures, reconciled to transaction
level detail. To support the amounts reported on the CoW report, the USMC
Budget Execution Division provided a transaction level detail report from SABRS.
However, the Command could not trace or reconcile the CoW Report to the transaction
level detail report.

The Command did not ensure the amounts on the USMC CoW Report reconciled to
transaction level detail because Command management lacked standard operating
procedures for personnel to create and maintain a complete audit trail for the CoW report.
As a result, USMC may have misrepresented cost of war expenditures by providing
inaccurate information for the USMC CoW report. The report may have given Congress
and DoD management incorrect information on the cost of war. To improve the
reliability of the USMC CoW report, the Command should develop standard operating
procedures for personnel to maintain an audit trail that includes enough information to
reconcile the report to the transaction level detail report.

Support SICs Recorded in SABRS
The Command did not provide supporting documentation that linked 35 of
41 transactions to the SIC recorded in SABRS. Specifically, 35 transactions, valued at
$15.9 million in obligations and $1.5 million in expenditures, were not supported. For
example, the Command recorded transactions in SABRS with the Operation Enduring
Freedom SIC. The supporting documentation identified the items purchased but did not
specify the purchase was being used for Operation Enduring Freedom.

SICs recorded in SABRS were not supported because Command management lacked
standard operating procedures to annotate the specific operation on supporting
documentation. As a result, the Command may have incorrectly reported transactions as
Operation Enduring Freedom costs. In addition, there may have been transactions that
supported the war that were not reported on the CoW report because they were not
properly supported and recorded in SABRS. To reduce the likelihood of errors, the
Command should develop standard operating procedures to substantiate the SIC used in
SABRS with supporting documentation and perform quality assurance reviews of OCO
transactions for basic facts, such as what was the event, where did it occur, and why did
the event occur.




                                            13
Reconcile Cost Codes
The Command did not ensure cost codes recorded in SABRS cross-walked correctly to
CoW reports or supporting documentation. Of 41 transactions, 8 transactions, valued
at $13.4 million in obligations and $800,000 in expenditures, could not be crosswalked to
the CoW report or supported with documentation. For example, the Command recorded
a transaction in SABRS with a transportation cost code and reported the transaction under
contract services on the USSOCOM CoW. However, according to the supporting
documentation the purchase should have been recorded under supplies and equipment
and not transportation or contract services.

Costs did not agree with supporting documentation or with the CoW report because there
were instances where cost codes were incorrectly documented or recorded, and the
Command lacked standard operating procedures to reconcile the changes between the
CoW report, SABRS, and documentation. As a result, the Command increased the risk
of errors and misstatements on the CoW reports. Command should develop standard
operating procedures to reconcile cost codes recorded in SABRS to improve the accuracy
of reporting.

Recommendations, Management Comments, and
Our Response
B. We recommend that the Commander, U.S. Marine Corps Forces Special
Operations Command, in accordance with the DoD Financial Management
Regulation, volume 6a, chapter 2, “Financial Reports Roles and Responsibilities”:

       1. Develop standard operating procedures to maintain the audit trail of
transaction level detail reports for the U.S. Marine Corps Cost of War report.

       2. Develop standard operating procedures to maintain supporting
documentation that supports the special interest codes for transactions supporting
overseas contingency operations.

       3. Perform quality assurance reviews of Overseas Contingency Operations
transactions in Standard Accounting, Budgeting, and Reporting System to ensure
Special Interest Codes are recorded correctly.

        4. Develop standard operating procedures to reconcile cost code data
entered into the Standard Accounting, Budgeting, and Reporting System with
supporting documentation and U.S. Special Operations Commands Cost of War
report.

Management Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller)
responding for the Commander, U.S. Marine Corps Forces Special Operations Command,
agreed. The Assistant Secretary stated that the Commander, U.S. Marine Corps Forces
Special Operations Command, published standard operating procedures in October 2010

                                           14
for handling and processing OCO transactions, to include a pre-approval and
requirements identification process. She also stated that quality assurance reviews are
conducted simultaneously during other regular oversight activities.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments
are responsive and meet the intent of the recommendations. No further comments are
required.




                                            15
Appendix A. Audit Scope and Methodology
We conducted this performance audit from September 2009 through May 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the DoD FMR, MCO, and JFTR policy related to the controls over the
Command’s comptroller operations. Upon request, Command personnel provided an
audit universe from SABRS. The universe included 35,699 transactions for baseline and
contingency operation funds. The universe was valued at $131.8 million in obligations
and $54.1 million in expenditures from October 1, 2008 to October 16, 2009. We
statistically selected 317 transactions and nonstatistically selected three additional
transactions from the universe. The 317 transactions that represented the Command’s
commitments, obligations, and expenditures; they originated from travel orders, supplies
and service orders, credit card purchases, Military Interdepartmental Purchase Requests,
contracts, and other documents. The Table on the following page summarizes the
number of transactions and the value of the obligations and expenditures tested.

Additionally, of 18 transactions with negative obligation amounts, we nonstatistically
selected three transactions valued at negative $136,000. We tested the three financial
transactions valued at negative $136,000 for sufficient supporting documentation for the
actions taken.

We requested supporting documentation for all 320 transactions. We compared
the sample data for each item to SABRS, obligating documents, and expenditure
documentation including receiving reports. In addition, we identified 41 of
the 320 transactions as items purchased for OCO. We compared the supporting
documentation, transaction level detail reports, operation codes, and cost codes, and CoW
reports to summary dollar amounts for accuracy. We used the transaction dollar amount
recorded in SABRS to calculate the dollar amount for deficient or unsupported
obligations and expenditures for consistency throughout the report. For example, if the
Command recorded expenditure in SABRS at $100 and provided invoices valued at only
$50, we reported the deficiency as $100. To determine how many supporting documents
were insufficient, we counted each transaction one time if the obligating document,
invoice, receiving report or voucher was not provided or if it was not sufficient to support
the transaction. For example, if the Command provided an obligating document to
support a transaction but did not provide an invoice to support the expenditure, we
counted the transaction as one transaction with insufficient supporting documentation.




                                            16
 Table. Types of Transactions and Associated Obligation and Expended Amounts

       Type of Transaction             Number of          Obligations     Expenditures
                                      Transactions        (in millions)   (in millions)
 Travel Orders                             70                 $ 0.4          $ 0.4
 Direct Support Stock Control
 Serve Mart Purchases                     110                  3.9             2.3
 Credit Cards                              13                  0.1             0.1
 Military Interdepartmental
 Purchase Requests                          53                49.0             12.5
 Order for Supplies and Services
                                            27                 3.8              2.0
 Request for Contractual Services
                                            27                22.0              1.1
 Funded Reimbursable Work
 Request Orders                             8                  2.0              0.3
 Military Pay Open Allotments
                                            1                  0.0              0.0
 Miscellaneous Financial
 Documents                                  5                  1.4              0.9
 Commercial Bill of Lading
                                            2                   0.8             0.7
 U.S. Transportation Request
                                            1                  0.2              0.2
   Total                                  317                $83.6            $20.5

Use of Computer-Processed Data
To perform this audit, we used data from SABRS. SABRS is the official accounting
system for the USMC. To determine whether the Command accurately recorded
obligations and expenditures in SABRS for 320 selected transactions, we compared the
sample data to detailed SABRS data, contracts or requisition forms, invoices, payment
vouchers, required travel receipts, and receiving reports. We determined that the SABRS
data were sufficiently reliable for the purpose of our audit.

Use of Technical Assistance
An operations research analyst of the Quantitative Methods and Analysis Division
(QMAD) of the DoD Office of Inspector General selected the statistical portion of the
sample. See Appendix B for detailed information on the work QMAD performed.

Prior Coverage of the Command’s Comptroller
Operations
No prior coverage has been conducted on the Command’s comptroller operations during
the last 5 years.



                                           17
Appendix B. Statistical Sample
Population. Upon request, the Command provided us with 35,699 transactions for
baseline and contingency operation funds. These transactions represent commitments,
obligations, and expenditures executed from October 1, 2008 through October 16, 2009.

Sample Plan. The Quantitative Methods and Analysis Division of the DoD Office of
Inspector General stratified the population of 35,681 transactions based on the
commitment amount into six strata excluding the 18 transaction with negative
commitment amounts. Based on calculations, what-if analyses, and professional
judgment, QMAD designed a stratified sampling plan at the 95-percent confidence level
that yielded a sample size of 317 transactions. Using the random number generator in
Excel, QMAD randomly selected (without replacement) transactions within each stratum.
The table shows the sampling selection per strata.

Table. Sample Plan.
            Strata               Stratum Population Size              Sample Size
  Greater than or equal to                 37                             37
  500 thousand
  Greater than or equal to                 108                              60
  100 thousand — less than
  500 thousand
  Greater than or equal to 10              777                             100
  thousand — less than
  100 thousand
  Greater than or equal to               5,523                              60
  1thousand — less than
  10 thousand
  Greater than or equal to               9,119                              30
  100 — less than 1 thousand
  Greater than or equal to 0            20,117                              30
  — less than 100
    Total                              35,681                             317



Results. We selected a statistical sample, in part, for the option to project our findings
across the population. However, the sample contained different types of transactions
such as travel, non-travel, and OCO. Attribute comparison was therefore inconsistent.
As a result, we decided projection would not be appropriate for reporting our results.




                                             18
Appendix C. Travel Vouchers With
Deficiencies or Unsupported Expenses
         Standard Document Number Sample Amount

         M6790609TOUT91X          $23,141.61
         M6790609TOUZ2NZ          $19,492.75
         M6790609TOTX28H          $18,253.00
         M6790609TOTQTQ8          $14,886.23
         M6790609TOV11T6          $14,296.10
         M6790609TOUZJVA          $14,179.40
         M6790609TOUH3RH          $13,250.62
         M6790609TOUYE69          $12,696.61
         M6790609TOUNXD1          $12,142.06
         M6790609TOUGWUG          $11,854.57
         M6790609TOV3990          $11,389.81
         M6790609TOVABKY          $10,456.08
         M6790609TOV5MX1          $10,225.58
         M6790609TOVT9U8          $ 9,327.40
         M6790609TOUVKI9          $ 5,912.47
         M6790609TOUB7B9          $ 5,869.47
         M6790609TOTXV0Y          $ 4,239.14
         M6790609TOUZR62          $ 3,868.37
         M6790609TOUSMFA          $ 3,335.50
         M6790609TOVQBUE          $ 2,743.69
         M6790609TOV46GM          $ 2,593.59
         M6790609TOTZ6YX          $ 2,007.89
         M6790609TOV5NAA          $ 1,394.30
         M6790609TOVQUYW          $ 1,391.90
         M6790609TOU2UED          $   1,330.50
         M6790609TOU26BT          $   1,246.39
         M6790609 TOW4UV5         $   1,048.08
         M6790609TOVJZKP          $   1,031.06
         M6790609TOSE50K          $     172.50




                            19
Office of the Assistant Secretary of the Navy (Financial
Management and Comptroller) Comments




                            T HE ASSIS T ANT SECRET ARY OF THE N A V Y
                               { FINAN CIAL MANAG EMENT AND COMPTROLLER)
                                             1000 NAV Y PENTAGON
                                         WA SHI N GTO N DC 20350·\000



                                                                                  June   8, 2011

      MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

      SUBJECT: U.S . Marine Corps Forces Sf)cr.:i al Opermions Co mmand Needs to Improve
               Control s Over Financial Tran sactions (Project No. D 2009-0000FN-030 1.0(0)

           The Department of the Navy (DUN) appreci ates the opportu nity to respond to the subj ect
      Department of Defen se Inspector General (DoD IG) draft report. Our comments ren ect thaI we
      concur with all the recommendations and believe that actions taken to dat e should close out all
      but two recommendations, A J.d. and A.2.

           I have revi ewed the DoD IG' s rccommcnd:llions and have the follow ing comm ents:

      RECOMMENDATION A.I .Recommend the Commander, U.S. Marine Corps Forces Spc(.;i ul
      Operations Command :

            A. I.a. De velop standard operating procedures and train personnel to properly authori ze and
            approve obligating doc uments in accordance wittl Marine Corps Order 7300.2 lA, October
            2008.
                                       Click to add JPEG file
            A I.b. Develop standard opem ti ng procedures and trai n personnel to properly sign
            inspection or receiving report form s, commercial shippin g documents, or packing li sts for
            goods and services to support expenditures in accordance with DoD Financial Management
            Regulation. volume 10, chapter I. " Financial Control of Vendor and Contract Payments"
            and Marine C:orps Order 7300.2 1A, October 2008.

      DON Response: Concur. Commander, U.S. Marine Corps I'orees Special Operalio ns Command
      (M ARSOC) publi shed standard operatin g procedures for the train ing of personnel in a docu men t
      entitled ·'U.S. Marine Corps Forces, Spec ial Operations Command Order 7300.1 (Fin ancial
      Manage ment Manual) dated 2 1 October 20 10. Add itionall y, the MARSOC conducted [raining in
      February/March 20 10 and continues to co nduct training in various Financi al Management topics
      to Command personnel during fI scal ass istance visits and small unit leader courses. Actions
      taken s hou ld close ou t these recommendation s.

              A.I .c. Perform Qualit y assurance rev iews of trave l vouchers to improve cO lllp1i ~m ce with
              Joint Federal Trave l Regul ati ons, volume 1, "U niformed Sen ·ice Members," Janu ary
              2010.

      DON Response: Concur. A quali ty assurance review was co nducted duri ng the 2nd quarter of
      Fiscal Year 20 I I to ussess compliance aga inst establis hed guidance, recentl y pub lished
      Commander' s guidance, and olher appl icable rcgulal iollS. ALiliiti unal1 y. tri -annu al reviews of
      un liquidated orders are flUW roulinely conducted with more emph<lsis on trave l transactions.
      Actions t<lken should close OUI thi s recomm endatiOIl.
SUBJECT: U.S. Marine CO'l)S Forces S pecial Operations Command Needs to Improve
         Controls Over finan cial Transactions (Projel.:( No. D 2009-DOOOFN-030 1.000)

        A .I .d. Review the travel vouchers proccssed by (he Command including those identified
        in Appendi x C to determine if the certifyin g officers and departmental accountable
        officials properly approved travel vouchers. Determine whethe r improper payment s were
        made and recover improper payments as appropri ate. Initiate appro pria te action in
        accordance with section 277Ja(c), tit le 10, Un ited States Code (2006), an d section
        3528(a)(4), title 3 1, United States Code (1998).

DON Re~mons e: ConCllr. Act ions we re taken to detcrmjne valid ity and accuracy of travel
vouchers listed in Appendi x C. 13 of the 29 vouchers were determined to be proper payments;
10 vouchers were detennined to be improper payment s; and 6 vouchers were indctermiIMble due
to aged records in the defense trave l system (DTS). CO llectjOil action s have been initiated on
a pprox. imately $4,700 with <lpproxim<ltely $3,000 actuall y co llected to date. Al l collection
actions arc I;:xpcr..: ted to be compl ete by 15 Septcmber 20 11 .

        A. I .c. Reconci le and maintain supporti ng documen tation for adju stments \0 the Standard
        Accoun ting, Budgeting, and Reporting System (SA BRS). accordi ng to Marine Corps
        Order 7300.2 1A, October 2008.

DON Response: Conc ur. Pcr MA RSOC order 7300. 1, poli cy is in place and being enforced to
                                Click to add JPEG file
reconcile and Ilminl<li n supporting documentation. Thi s is c urren tly enforced during quarterly
fi scal ass istance visi ts and tri-annual revicwli of unliquidatcd orders. Actions taken shou ld close
out thi s reco mmendation.

        A.I.r. Devel op standard uptTuting procedures a nd trai n pcrsonnel to maintain s upporting
        um.:ume ntation to full y suppOrt Jinancial transactions in accord,mce with DoD Financial
        Manage ment Regulation. volume 6a , c hapter 2. "Financial Reports Roles and
        Re..<>ponsibiI it ics."

001\" Response: Concur. MARSOC order 7300. 1 dated 2 1 October 20 10 detail s processes and
practices for maintaining support ing documentation. Action take n should c lose out Ihi s
recommendation.

       A. I.g. Implement pe riod ic quality assurance reviews of fi nanc ial transactions to e nsu re
       that obligatin g docume nts are signed, receipt o f items and serv ices arc sig ned, ,lmounts
       arc recorded and reported correct ly and that proper su pporting documentation ex ists and
       is maintained ill accon.hHlIX with DuD Financial Management Regulation , vo lume 6a,
       chapter 2, "Financial Report s Roles and Respons ibilities" and Marine Corps Order
       7300.2 1A, OClOber 2008.

DON Response: Concur. MARSOC order 7300. 1 is in place and is currentl y enforced during
quarterly assessment reviews. rev iews of unl iquidated orders, and fi scal assistance vis its.
Acti ons taken should close ou t thi s recommendati on.
SUBJ ECT; U.S. Marine Corps Forces Spec ial Operations Command Necd~ to Improve
          Controls Over Financial Tran sac tions (Project No. D 2009-DOOOFN-030 1.000)

RECOM MEN DATION A.2: DODIG recommends the Commander, U.S. Marine Corps Forces
S pecial Operations Command, in conjunction with the U.S. Marine Corps Force Stnleture
Review Group, develop a plan to address the problem s stemming from personnel rotation that
contributed to contro l weaknesses and noncompliance wi th 000 Financial Management
Regu lation. volume 6a, chapter 2, " Financial Report s Ro les and Respo nsibilities."

DON Response: Concur. U.S . Special Operations Command (USSOCOM) and MARSOe have
engaged the USMC Force Structure Rev iew G roup. The proposed growth of military personnel
within MARSOe wi ll alleviate some press ure of COllti nuOllS rotaliol1s/deploymcnts/transilions.
With regard to civi li an finan cial management positions, the DON received a substanti al
reduction ill civ ilian persunnel manning as part of the SEeDEr efficie ncy review in December
201 1. Ci\' ili an manpower grow th wi ll be more cha ll enging. Further review o f staffing to
properly manage financial resources is requi red. Additional infonnation is expected by 15
December 20 II .

RECOMMENDATION B. DODIG recommends that the Commander, U.S. Marine Corps
Forces Special Operations Command . in accordance with the DoD Financ ial Management
Regu lation , volume n,l, chapter 2, " Financial Reports. Roles and Responsibilities":

                                 Click to add JPEG file
       8. 1. Deve lop standard operatin g procedures to maintain the audit tra il of transaction level
       detail reports for the U.S . Marine Corps Cost of War report.

       B.2. Deve lop standard operating proce<..lurcs tu lIIaintaill supponi ng uOI.,:ulTlcnlatiun thai
       suppons the special interest codes for Imnsuctions supporting ove rseas conLingency
       operations.

DON Response: Concur. MARSOe has impl emented a process of pre-approval/req ui rements
identi fica ti on that improves COdifyi ng Overseas Con tingency Operati ons (OCO) req uirements
early in the process. All projected requirements are firs t submitted to the Comptroller fo r
validation and approval as oeo ex penditures. Ac tl1:l1 cxpencliturcs ilre Ihen reconcil ed 10 cost
repons and rolled inlo the overall oeo authority prov ided by the USMC. Additiona ll y,
MARSOe order 7300.1 addresses handling and processing of these transactio ns. Actions taken
should close out these recommendations.

       B.3. Perform quality assuram;c rev iews o f O\'crseas COlltill gt:IlI.:y Ope:rations trall sactioll S
       in Standard Accou nting. BUdgetin g, and Reponing System to ensu re Speciallnterest
       Codes are recordcd co rrect ly.

       8.4. Develop standard operating procedures to reconcile cost code data entered into the
       Standard Accountin g, Budgeting, and Reporting System wit h su pport ing documentation
       and U.S. Special Operations Com mand s Cost of War report.
SUDJ ECT:   u.s. Marine Corps Forces Speci,d Operat ions Command Needs to lm prove
            Controls Over Financial Transact ions (Projec t No. 0 2009 ~ DOOOFN ~ 030 1. 000)

DON Respo nse: Concur. T hese reviews are conducted simultaneously du ring tri-an nua l rev iews
of unliquidated o rders and fiscal a'isistance visits. Additi onall y. this info rmati on is now
publ ished and directed in MARSOe order 7300.1 . Actions taken should cl ose OUl lhese
recommendati ons.

    The DON and Marine Corps are avail able should   yO li   hnve any   fo ll ow~ l1 p   questions. My
point of contact fo r this matter is




                                            ~&~
                                              Gladys J. Commons


Copy to:
DCMC(P& R)
D ASN(B udget)

                              Click to add JPEG file
24
